                                              NATIONAL SCIENCE FOLINDATION
                                                   4201 WILSON BOULEVARD
                                                  ARLINGTON, VIRGINIA 22230




                                 -
                     OFFICE OF
                 INSPECTOR GENERAL



                  MEMORANDUM

                  Date:         June 13, 1996
-.   -   ... .    To: --        Case File no.
                                          _ I9604002 1  .--._

                  Through:                     Special
                  From:
                  Re:
                                \               Investiga I,                                                  -

                  On 4/12/96, we received a complaint from an employee in the Division of Social,
                  Behavioral, and Economic Research (SBER) that someone had printed sexually explicit
                  material off hnudg!tis-                       the SBER office's laser printer.

                  At 6:30pm on 411 1/96, the complainant was working in her office and walked down the
                  hallway to the laser printer to retrieve some documents she had just printed. At the
                  printer, on top of her documents, was a pornographic picture which had been printed.
                  The employee picked up the material, along with her work, and showed a coworker. The
                  employee then walked back to the printer to retrieve more of her work and saw three
                  additional pictures that had been printed. She showed these pictures to another coworker.
                  The complainant walked around the office and determined that four other coworkers were
                  in the office at the time. The next day, the employee called the OIG.

                  At the request of the Inspector General, SBER and the Division of Information Systems
                           onducted a review of the Netscape History files (found in
                                                        for all of the employees in SBER. The review
                  revealed that one employee's Netscape History files contained homepages of sexually
                  explicit material. This employee,&-6,                     was one of the seven employees
                  working in the office when the complainant had found the pornographic material on
                  411 1/96.

                 The employee has received a three day suspension.
                 electronic mail message about the proper use of the
                 addition, DIS will be adding an "Official Use" notification every time a person uses a DIS
                 web browser (Netscape).
                                                    $


                 This case is closed.
